U.S. Department of the Interior
Office of Inspector Genera1




           AUDIT REPORT


NATIVE AMERICAN GRAVES PROTECTION
    AND REPATRIATION ACTIVITIES,
   BUREAU OF LAND MANAGEMENT

             REPORT NO. 00-I-377
                 MAY 2000
 U.S. Department of the Interior                                 Office of Inspector General


                              EXECUTIVESUMMARY
                           Native American Graves Protection
                               and Repatriation Activities,
                              Bureau of Land Management
                                   Report No. 00-I-377
                                       May 2000

BACKGROUND

The Bureau of Land Management (BLM) is responsible for managing and protecting about
260 million acres of public land, includin,@ the archaeological and historical resources
derived from that land. The Native American Graves Protection and Repatriation Act
(NAGPRA), which is implemented through the Code of Federal Regulations (43 CFR lo),
requires each Federal agency that has possession of or control over collections of human
remains and associated funerary objects to compile an inventory, including geographic origin
and Native American cultural affiliation (if determinable), of such remains and objects.
Additionally, the process ofidentification and cultural affiliation occurs through consultation
with the Native American tribes to facilitate repatriation when requested by the respective
tribes. Further, 43 CFR 10 requires Federal agencies to submit a Notice of Inventory
Completion to the Department of the Interior Consulting Archaeologist and a copy of the
Notice to the respective Native American tribe upon determining the cultural affiliation of
any human remains or associated funerary objects. Thereafter, the Notice is published in the
“Federal Register” to give formal notification that the human remains and associated
funerary objects have been identified and may be returned to the affiliated Native Americans.

OBJECTIVE

The objective of the audit was to determine whether BLM complied with the requirements
of NAGPRA and related Code of Federal Regulations and Department of the Interior
policies.

RESULTS IN BRIEF

We found that overall, BLM had made significant progress in complying with the
requirements of NAGPRA. Specifically, BLM located and determined tribal affiliation for
about 90 percent of the Native American human remains included in its museum collections.
However, the Utah State Office had made minimal progress in completing the required
NAGPRA process in Utah, and BLM Colorado State officials allowed Native American
remains to be reburied on BLM-managed public land in Colorado, even though a BLM
instruction memorandum prohibits such rebuxials. These deficiencies occurred because the
Utah State Office did not identify the NAGPRA requirements as a high priority activity and
provide the resources needed to accomplish the effort by the NAGPRA-required date of
November l&1995. Also, BLM senior-level managers did not monitor and enforce BLM’s
policy regarding public land reburials. As a result, Native American remains have not been
repatriated timely in Utah; tribes and Native Americans may not be able to control remains
reburied on public land; and BLM Colorado officials may not be able to adequately protect
these reburied remains fi-om vandalism, degradation, and theft.

RECOMMENDATIONS

We recommended that BLM develop and implement a plan for the Utah State Offke to
ensure completion of NAGPRA requirements in an expeditious manner and ensure
compliance with BLM policy regarding the prohibition of reburying Native American
remains on BLM-managed lands.

AUDITEE COMMENTS AND OIG EVALUATION

BLM concurred with the report’s two recommendations. Based on BLM’s response and
subsequent information, we considered one recommendation resolved and implemented and
the other recommendation resolved but not implemented.




                                           2
                                                                                  C-IN-BLM-003-98(A)-D

                 United States Department of the Interior
                                   OFFICE OF INSPECTOR GENERAL
                                             Washington. DC. 20240




                                        AUDIT REPORT                               MAY - 5 ?:ce

Memorandum

To:           Director, Bureau of Land Management

From:


Subject:      Audit Report on Native American Graves Protection and Repatriation Activities,
              Bureau of Land Management (No. 00-1-377)

                                        INTRODUCTION

This report presents the results of our audit of the Bureau of Land Management’s (BLM)
Native American Graves Protection and Repatriation Act (NAGPRA) activities. The
objective of the audit was to determine whether BLM complied with the requirements of
NAGPRA (25 USC. §3001-3013), enacted in 1990, and related Code of Federal
Regulations and Department of the Interior policies. This report is the second oftwo reports
we have issued concerning BLM’s Cultural Resource Management Program. The first
report, “Cultural Resource Management, Bureau of Land Management” (No. 99-I-808), was
issued in September 1999 (see Prior Audit Coverage).

BACKGROUND

BLM is responsible for managing and protecting about 260 million acres of public land,
including the archaeological and historical resources derived from that land. According to
BLM officials, BLM and its predecessor organization, the General Land Office, authorized
the collection ofmillions ofarchaeological andpaleontological objects’ from the public land.
These objects were deposited mainly into about 189 non-Federal repositories, including
museums, universities, and historical societies located in 34 states and Canada. BLM
maintains about 3.5 million museum objects located primarily in two BLM museum
facilities: the Anasazi Heritage Center in Dolores, Colorado, and the Billings Curation Center
in Billings, Montana.




‘These objects include human remains and funerary objects. According to 43 CFR 10.2(d)(2), funerary objects
are “items that, as part of the death rite or ceremony of a culture, are reasonably believed to have been placed
intentionally at the time of death or later lvith or near the individual human remains.”

                                                       3
NAGPRA, which is implemented through 43 CFR 10, requires each Federal agency that has
possession of or control over collections of human remains and associated funerary objects
to compile an inventory, including geographic origin and Native American cultural
affiliation’ (if determinable), of such remains and objects. Additionally, the process of
                                                                    3
identification and cultural affiliation occurs through consultation with the Native American
tribes to facilitate repatriation4 when requested by the respective tribes. Further, 43 CFR 10
requires Federal agencies to submit a Notice of Inventory Completion to the Departmental
Consulting Archaeologist and a copy of the Notice to the respective Native American tribe
upon determining the cultural affiliation of any human remains or associated funerary
objects. Thereafter, the Notice is published in the “Federal Register” to give formal
notification that the human remains and associated funerary objects have been identified and
may be returned to the affiliated Native Americans.

SCOPE OF AUDIT

To accomplish our objective, we visited or contacted personnel in BLM’s headquarters,
BLM state or field offices, BLM’s Anasazi Heritage Center museum, and the Office of the
Departmental Consulting Archaeologist to obtain information and data regarding BLM’s
efforts to comply with the requirements of NAGPRA (offices and sites visited are listed in
Appendix 1). We also obtained information from Indian tribes through a questionnaire
regarding their satisfaction with BLM’s efforts to comply with NAGPk4. Additionally, we
contacted other BLM offices and officials as needed to accomplish the audit objective.

Our audit, which was conducted during April through September 1999, was made in
accordance with the “Government Auditing Standards,” issued by the Comptroller General
of the United States. Accordingly, we included such tests of records and other auditing
procedures that were considered necessary to accomplish our audit objective. As part of our
audit, we evaluated the system of internal controls to the extent that we considered necessary.
We found internal control weaknesses in BLM’s compliance with NAGPRA requirements
in the State ofUtah and with the Colorado State Office’s public land reburial actions. These
weaknesses are addressed in the Results of Audit section of this report.                   Our
recommendations, if implemented, should improve the internal controls in these areas.

We also reviewed the Departmental Report on Accountability for fiscal year 1998, which
includes information required by the Federal Managers’ Financial Integrity Act of 1982, and


‘According to 43 CFR 1&2(e), cultural affiliation is “a relationship of shared group identity which can
reasonably be traced historically or prehistorically between members of a present-day Indian tribe or Sative
Hawaiian organization and an identifiable earlier group.”

‘NAGPRA requires Federal officials to consult with Inci:an tribal officials, traditional religious leaders. or
known lineal descendants regarding the identification. afKl;ltion. and repatriation ofSatlve American remains
and related cultural objects. BLM .Manual Handbook H-8 160-l slates rhat “consultation is the active,
affirmative process of: (1) identifying and seeking input from appropriate Native American governing bodies,
community groups, and individuals; and (2) considering their interests as a necessary and integral part of the
BLM’s decision-making process.”

‘Repatriation is the actual transfer of custody to new owners (lineal descendants or tribal officials).

                                                       4
BLM’s 1998 Annual Report to determine whether any reported weaknesses were within the
objective and scope of our audit. We found that neither report identified weaknesses in
BLM’s activities regarding NAGPRA.

PRIOR AUDIT COVERAGE

The General Accounting Office has not issued any audit reports during the past 5 years on
BLM’s NAGPRA activities. The Office of Inspector General has issued one report during
the past 5 years regarding BLM’s Cultural Resource Management Program, which includes
KAGPRA activities. The report, “Cultural Resource Management, Bureau of Land
Management” (No. 99-I-808), issued in September 1999, stated that BLM did not adequately
(1) survey the public land to determine the location, nature, and extent of culturally
significant sites and (2) control and account for its museum collections. The report contained
four recommendations to improve BLM’s cultural resources management, which BLM
agreed to implement.

                                  RESULTS OF AUDIT
We found that overall, BLM had made significant progress in complying with the
requirements of NAGPRA. Specifically, BLM located and determined tribal affiliation for
about 90 percent of the Native American human remains included in its museum collections.
However, the Utah State Office had made minimal progress in completing the required
NAGPRA process in Utah, and BLM Colorado State officials allowed Native American
remains to be reburied on BLM-managed public land in Colorado, even though BLM
Instruction Memorandum (IM) 98-l 3 1 prohibits such reburials. These deficiencies occurred
because the Utah State Office did not identify the NAGPRA requirements as a high priority
activity and provide the resources needed to accomplish the effort by the NAGPRA-required
date of November 16, 1995, and because BLM senior-level managers did not monitor and
enforce BLM’s policy regarding public land reburials. As a result, Native American remains
have not been repatriated timely in Utah; tribes and Native Americans may not be able to
control remains reburied on public land; and BLM Colorado officials may not be able to
adequately protect these reburied remains from vandalism, degradation, and theft.

NAGPRA Activities

We found that as of September 1,1999, BLM had located and identified the human remains
of 2,256 individuals’ in its museum collections of cultural objects. The status of these
human remains from BLM-managed public land is in Table 1.




‘According to BLM’s National Curator, “individual” represents human remains that have been determined to
be from one individual and may be a complete skeleton but is more likely to be fragmentary remains.
                             Table 1. Native American Human Remains in
                                      BL>I Possession or Control’
                                                 (As of September 1999)

                                       Tribal Affiliation       Unaffiliated            Affiliated       Affiliated But
  State        Individuals”            Not Determined          With Anv Tribe         and Repatriated   Not Repatriated
Alaska              1,121                      12                     0                    409                 700
Arizona                82                       0                    18                        5                59
California             50                      17                     0                       11                22
Colorado              426                       0                     0                        3               423
Eastern States           0                      0                     0                        0                 0
Idaho                ( 13                       0                     0                      13                  0
Montana                 10                      0                    10                        0                 0
Nevada                124                       0                   120                        3                  1
New Mexico            179                       0                   100                        0                79
Oregon/Washington      13                       0                     0                      13                  0
Utah”’                200                    200                      0                        0                 0
Wyoming            38                        0                     _35                     0                3
Bureauwide         2.256                     229                   283                     g7               1,287


‘Data in Table 1 were provided by BLM state offke and field office officials.
““Individuals” include all human remains, subject to NAGPRr\, in the possession or control of BLM
“‘Utah data were estimated by Utah State Oflice officials.



As shown in Table 1, of the 2,256 individuals identified, BLM had affiliated
 1,744 individuals (77 percent) to specific Sative American tribes and had determined that
283 individuals (13 percent) were culturally unidentifiable.6 Of the 1,744 human remains
affiliated to Native American tribes, BLM had repatriated 457 remains, as requested by the
respective tribes. Of the 1,287 human remains that had been affiliated to tribes but had not
been repatriated, 1,123 human remains were undergoing further BLIWtribal consultations
to determine their status, 160 individuals were pending publication of “Federal Register”
Notices of Inventory Completion, and 4 individuals were unclaimed by the respective tribes.
Repatriation of human remains and associated funerary objects is required by the Act only
when requested by the affiliated tribes; otherwise, the unclaimed remains and associared
funerary objects are held in BLM-managed museum collections. BLM had not determined
the cultural affiliation for the remaining 229 individuals, of which 200 individuals
(87 percent) were f?om BLM-managed public land in Utah.

Other than identifying the material as human remains, BLM officials in Utah stated that
minimal progress had been made in determining tribal affiliation, conducting tribal
consultations, and repatriating (as needed) the estimated 200 Native American remains
because of higher priority wilderness study work. Although almost 10 years have passed
since enactment of NAGPRA, Program officials in Utah could not estimate when the
NAGPRA requirements \\,ould be given the priority and resources needed for compliance.




these “culturally unidentifiable” human remains could not be traced (affiliated) to any existing Federally
recognized Native American tribe.

                                                              6
Reburials on Public Land
During our audit, BLM officials in Colorado said that Native American remains in the State
had been reburied on BLM-managed public land with the officials’ knowledge ofthe actions.
BLM policy prohibiting the reburial of repatriated Native American remains on BLM-
managed public land is contained in BLM IM 9% 13 1, which states:

         Due to the substantial and extensive legal, logistical, and practical problems
         that would ensue if human remains and other “cultural items” repatriated or
         transferred to lineal descendants or tribes were to be reburied on public land,
         the Bureau’s [BLM] existing policy, in place since 1996, is reaffirmed and
         clarified: The BLM’s managers shall not directly or indirectly authorize or
         permit the reburial of repatriated, removed, or transferred human remains
         and/or other NAGPRA materials, on public lands.

BLM officials in Colorado said that the policy prohibiting reburial of human remains on
BLM-managed land was instituted because of legal issues regarding ownership and because
BLM officials could not ensure that such remains would be protected after reburial. The
policy’ “responds to the extensive legal problems that reburials would create for the BLM
manager who administers the land and the Native Americans who own the materials.”

According to BLM IM 98-13 1, these “problems” are due to the owners (lineal descendants
or tribes) being unable to exercise full control over the reburied remains, the multiple use
mandate that public land is subject to, and BLM’s difficulty in protecting8 non-Federally
owned remains after reburial on BLM-managed public land. However, Colorado State
officials said that they believed BLM’s prohibition ofpublic land reburials was impeding the
NAGPRA consultation process and that it reduced BLM’s ability to repatriate NAGPRA
remains to tribes because some tribes wanted the remains to be reburied near the original
burial sites (on public land). Therefore, these officials allowed Native American remains to
be reburied on BLM-managed public land.

Tribal Concerns
During our audit, we mailed a questionnaire to 569 Native American tribes to obtain
information from the tribes regarding BLM’s efforts to comply with NAGPRA. As of
November 30, 1999, we had received responses from 33 tribes (6 percent of the
questionnaires mailed). The responses from 22 of the 33 tribes said that the tribes were
satisfied with or did not express an opinion on BLM’s NAGPRA efforts, and 11 tribes (one-
third of the respondents) stated that they were concerned with or dissatisfied with BLM’s
NAGPRA efforts. These 11 tribes cited the lack of adequate BLMtribal consultations
regarding NAGPRA issues, BLM’s policy of not allowing the reburial of Native American


-The Policy Against Reburial of Repatriated Materials on Public Lands was originally contained in
BLM IM 96-97> issued in May 1996, and was reaffirmed in BLM IM 9% 13 1, issued in July 1998.

‘Personal property belonging to an Indian tribe and returned to public land would not be protected by the
Archaeological Resources Protection Act.

                                                    7
remains on BLM-managed public land, and the lack of sufficient funding for the tribes to
conduct their NAGPRA consultations with BL,M.

Recommendations

We recommend that the Director, BLM:

       1. Develop and implement an overall action plan for the Utah State Office to ensure
completion in an expeditious manner of all NAGPRA requirements regarding human
remains (inventorying, determining tribal affiliation, consulting with the tribes, formally
reporting, and repatriating, as appropriate).

      2. Ensure that BLM senior-level managers monitor compliance with the BLM policy
regarding the prohibition of reburying Native American remains on BLM-managed public
land and take appropriate action for noncompliance with the policy.

BLM Response and Office of Inspector General Reply

In the March 3 1,2000, response (Appendix 2) to the draft report from the Acting Director,
BLM, BLM concurred with our two recommendations. Subsequent to the response, BLM
also provided a target date of September 30, 2002, for implementation of
Recommendation 1. Based on the response and the subsequent infomration, we consider
Recommendation 1 resolved but not implemented and Recommendation 2 resolved and
implemented (see Appendix 3). Accordingly, Recommendation 1 will be referred to the
Assistant Secretary for Policy, Management and Budget for tracking of implementation.

Additional Comments on Audit Report

BLM stated that it “has generally reported lower numbers of individual skeletal remains
(627) identified under NAGPRA [Native American Graves Protection and Repatriation Act]
than does this audit report”; that it had used “the most precise and consistent numbers
possible”; and that the numbers “represent only completed and officially documented
NAGPRA actions.” BLM further stated that the reasons the number of 2,256 in our report
is “significantly higher” than the number reported by BLM is that the 2,256 included “not
only the fomrally identified individuals but, also, (a) unaffiliated individuals (material not
subject to repatriation), (b) material in draft pending “Federal Register” Notices, (c)
estimated numbers supplied by [BLM] field personnel, (d) material uhere no tribal affiliation
could be made, and (e) material whose status may change after initial consultation with
tribes.”

The number of human remains, 2,256, that BLM had located and identified as of
September 1, 1999, was used in our report to show, the overall status of NAGPRA activities
within BLM. We included all known (by BLM) remains that were subject to NAGPRA-
related actions, whether or not these actions were completed or were formally documented
in published notices. This resulted in a more comprehensive picture of the overall progress
BLM has made in complying with the requirements of NAGPRA. Moreover, this audit


                                              8
approach has also disclosed the areas for improvement, such as timely completing the
NAGPRA process in Utah.

Since the report’s recommendations are considered resolved. no further response to the
Office of Inspector General is required (see Appendix 3).

Section S(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office
of Inspector General provides audit reports to the Congress.




                                             9
                                                                                     APPENDIX 1



                           OFFICES AI’iD SITES VISITED
                                OR CONTACTED

                        Office and Site                                   Location

Department of the Interior
   Office of the Departmental Consulting Archaeologist            Washington, D.C.

    Bureau of Land Management
       Headquarters
           Cultural Resource Management Office                    Washington, D.C.
           National Curator                                       Sacramento, California
       Alaska State Office*                                       Anchorage, Alaska
       Arizona State Office*                                      Phoenix, Arizona
       California State Office                                    Sacramento, California
       Colorado State Office                                      Lakewood, Colorado
           Anasazi Heritage Center                                Dolores, Colorado
       Eastern States Office*                                     Springfield, Virginia
       Idaho State Office                                         Boise, Idaho
           Lower Snake River Field Office                         Boise, Idaho
       New Mexico State Office*                                   Santa Fe, New Mexico
       Montana State Office*                                      Billings, Montana
       Nevada State Office*                                       Reno Nevada
       Oregon State Office* *                                     Portland, Oregon
       Utah State Office*                                         Salt Lake City, Utah
       Wyoming State Office*                                      Cheyenne, Wyoming

Non-Federal Repositories:
   Colorado State University*                                     Fort Collins, Colorado
   University of Denver                                           Denver, Colorado




*Office contacted.
**The Oregon State Office area includes BLM-managed land in Washington.




                                                 10
                                                                                APPENDIX 2
                                                                                  Page 1 of 3


                 United States Department of the Interior
                                BLXEAU OF LAND IL45.‘.4GE?IENT
                                                                                      In   Rcplj Refer To:
                                     Washington, D.C. X240
                                         http://aw.blm.gov
                                                                                   1245 (240/83 0)

                                          March 29, 2cca

                                        MEMORANDUM

To:            Assistant Inspector General for Audits

Through:


From:        aTom Fry
            ’ Acting Director, Bureau of Land Management                     Rosa Hatfield

Subject:       Response to Draft Audit Report on Native American Graves Protection and
               Repatriation Activities, Bureau of Land Management, C-IN-BLM-003-98 (A)-D

Thank you for the opportunity to respond to the Office of the Inspector General’s (OIG) February
2000 “Draft Audit Report on Native American Graves Protection and Repatriation Activities,
Bureau of Land Management (BLMJ.” We appreciate the time and effort involved in producing
this document and are pleased the report reveals the BLM is implementing the requirements of the
Native American Graves Protection and Repatriation Act (NAGPRA) effectively. We plan to
use the recommendations to improve the BLM’s implementation of this important law. The
BLM’s specific concurrence with the two recommendations made by your office is attached to
this response.

We would like to take this opportunity to clarify the numbers of indikjdual skeletal remains
subject to NAGPRA that the BLM is managing at this time. The BLM has generally reported
lower numbers of individual skeletal remains (627) identified under NAGPIU than does this audit
report (2,256). There are no reporting requirements under NAGPRA. However, on occasion,
BLM has been informally requested to provide statistics on various aspects of NAGPRA. To
answer these requests, the BLM has chosen to use the most precise and consistent numbers
possible--numbers that represent only completed and officially documented NAGPRA actions.
This OIG audit report includes any and all skeletal remains that may be subject to NAGPRA. The
differences between the numbers are in the definitions of the obiects counted.

The BLM last reported 627 skeletal remains as the number of individuals which had been formally
identified for potential repatriation or transfer of custody. That is, we reported that material,
which, after going through the complete NAGPRA process, was formally identified in a
NAGPRA Federal Reaisler Notice or a NAGPRA Transfer of Custody Newspaper Notice for
potential repatriation or transfer to affiliated tribes under the NAGPRA.



                                               11
                                                                                APPENDIX 2
                                                                                  Page 2 of 3


                                                                                                  2

The reason the numbers in your report (2 ,256) are significantly higher than those reported by the
BLM is they included not only the formally identified individuals but: also, (a) unaffiliated
individuals (material not subject to repatriation), (b) material in draft pending Federal Renisrer
Notices, (c) estimated numbers supplied by field personnel, (d) material where no tribal
affiliation could be made, and (e) material whose status may change after initial consultation with
tribes.

Any general questions regarding this audit may be referred to Ms. Pamela Cleary, Pitting BLM
Audit Liaison Officer, at (202) 452-5 196; any program specific questions may be referred to
Dr. Stephanie Damadio, National Curator, (916) 978-4650.



Attachment




                                              12
                                                                                  APPENDIX 2
                                                                                    Page 3 of 3




       BUREAU OF LASD MASAGEMEST RESPONSE TO THE O FFICE OF THE IXSPECTOR
       G ENERAL D RAFT A UDIT REPORT , NATIVE AMEIUCFU GRAVES PROTECTION ~YD
                               REPATRIATION ACTIVITIES
                               (So. C-IN-BLM-003-98 D)

Recommendations

OZG Recommendation I: Develop and implement an overall action plan for the Utah Stale Office
to ensure completion in an expeditious manner of all NAGPRA requirements regarding human
remains (inventorying, determining tribal affiliation, consulting with the tribes, formally reporting,
and repatriating, as appropriate).

Concur:
In response to this recommendation, the State Director, BLM Utah developed a draft action plan on
_kkrch 14,200O to ensure the compIetion of NAGPRA requirements in an expeditious manner. We
expect the action plan to be finalized by the end of May and will provide a copy to you at that time.
The responsible official for implementing this recommendation is the State Director, BLM Utah.

OIG Recommendation 2: Ensure that BLM senior-level managers monitor compliance with the
BLMpolicy regarding the prohibition of rebuving Natir,e -4merican remains on BLM-managed
public lands and take appropriate action for noncompliance with the policy.

Concur:
The BLM Colorado State Office, found by this audit to have acted outside the policy, issued
Instruction Memorandum CO-ZOOO- 16 on February 18, 2000, which reiterated the BLM policy
prohibiting the reburial of repatriated or transferred NAGPRA materials on public lands. Bureau
officials will be reminded of this policy at appropriate meetings, and once the final audit report is
issued, it will be distributed to all the BLM Field Offices as an Information Bulletin. The
responsible official for implementing this recommendation is the Assistant Director, Renewable
Resources and Planning.




                                                 13
                                                                    APPENDIX 3

        STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference           Status                    Actions Required

          1              Resolved; not        No further response to the Office of
                         implemented.         Inspector General is required. The
                                              recommendation will be referred to
                                              the Assistant Secretary for Policy,
                                              Management and Budget for tracking
                                              of implementation.

                         Implemented.         No further response to the Office of
                                              Inspector General is required.




                                         14
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                    Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N. W.                                   l-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420



                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pa@ Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Office
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-000 1

Toll Free Number
      l-800-424-508 1

FTSKommercial Numbers
    (202) 208-5300
    TDD (202) 208-2420
